OFFICE OF THE ATTORNEY GENERAL
CONNECTICUT

March 20, 2020

Scott S. Harris
Clerk of the United States Supreme Court
Supreme Court of the United States
1 First Street, NE
Washington, DC 20543
RE: Actavis Holdco US, Inc., et al. v. Connecticut, et al., No. 19-1010 Request for extension to respond to petition for certiorari
Dear Attorney Harris:
On behalf of all Respondents and pursuant to Rule 30.4, the liaison
counsel for the State Respondents hereby respectfully requests an additional
twenty-26 (26) day extension of time, up to and including May 11, 2020, to
respond to the pending petition for certiorari in the above-captioned matter.
The petition was docketed on February 13, 2020, and four amicus briefs in
support of the petition have been filed up to March 16, 2020. Respondents
have already received an extension up to April 15, 2020.
This request is made necessary because of the extensive legal work
surrounding the current pandemic, and the uncertainty accompanying these
unique and unusual time. Although substantial time and effort have already
been spent preparing the brief in opposition, Respondents require the
additional time to incorporate responses to the recently filed amici
submissions in their opposition(s) to the petition for certiorari. Moreover, for
the Plaintiff States, 54 states, territories and District of Columbia need to
review and approve the proposed filing. Coordination with these sovereign
states, particularly given the current world-wide health crisis and the
transitions to remote telecommuting for both counsel and printers, requires
substantially more time than normal.

165 Capitol Avenue
Hartford, Connecticut 06106
An Affirmative Action/Equal Opportunity Employer

OFFICE OF THE ATTORNEY GENERAL
CONNECTICUT

Respondents therefore request an additional twenty-six (26) days in
which to respond to the petition, up to and including May 11, 2020. Counsel
of Record for Petitioners, Steffen Johnson, has graciously consented to this
request for an extension of time on behalf of Petitioners.
Respectfully submitted,

ROBERTA D. LIEBENBERG
JEFFREY S. ISTVAN
Fine, Kaplan and Black, R.P.C.
One South Broad Street, 23rd Floor
Philadelphia, PA 19107
(215) 567-6565
Lead Counsel for the
End-Payer Plaintiffs
JONATHAN W. CUNEO
Cuneo, Gilbert & Laduca LLP
4725 Wisconsin Avenue, N.W. Suite
200
Washington, D.C. 20016
(202) 789-3960
Lead Counsel for Indirect Reseller
Plaintiffs
WILLIAM J. BLECHMAN
Kenny Nachwalter P.A.
1441 Brickell Avenue, Suite 110
Miami, FL 33131
(305) 373-1000
Counsel for the Kroger Direct Action
Plaintiffs and Liaison Counsel for
DAPs

165 Capitol Avenue
Hartford, Connecticut 06106
An Affirmative Action/Equal Opportunity Employer

__/s/ Clare E. Kindall______________
CLARE E. KINDALL
Solicitor General of Connecticut
Counsel of Record
W. JOSEPH NIELSEN
Assistant Attorney General
165 Capitol Avenue
Hartford, CT 06106
Clare.Kindall@ct.gov
(860) 808-5261
Liaison Counsel for Plaintiff States
DIANNE M. NAST
Nastlaw LLC
1101 Market Street, Suite 2801
Philadelphia, PA 19107
(215) 923-9300
Lead Counsel for the Direct Purchaser
Plaintiffs

